               U.S. Department of Energy
               Office of Audit Services




Audit Report

Management   Challenges
 Federal Energy         at the
                Regulatory Commission’s
Department
 PerformanceofManagement
              Energy




DOE/IG-0580
 DOE/IG-0627                               December
                                            November2002
                                                     2003
                               Department of Energy
                                    Washington, DC 20585
                                   November 24, 2003


MEMORANDUM FOR THE CHAI                      N, FEDERAL ENERGY REGULATORY
COMMISSION

FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Federal Energy Regulatory
                          Commission's Performance Management"


BACKGROUND

The Federal Energy Regulatory Commission, as an independent, five-member body,
regulates certain aspects of the oil, natural gas, and electricity industries, and licenses
hydroelectric projects. As required by the Government Performance and Results Act of
1993, the Commission developed performance goals in four major areas to help guide
mission accomplishment: Energy Infrastructure, Competitive Markets, Market
Oversight, and Resource Management. In support of its goals, the Commission
established about 45 annual performance measures and a number of related targets.

Because of the Commission's importance to the Nation's energy markets and supply, we
initiated this audit to determine whether it had established objective, quantifiable, and
outcome or output-oriented performance measures for its significant programs and
whether it had met its annual performance goals.

RESULTS OF AUDIT

While many of the Commission's performance measures were appropriate, we observed
that:

    0   A few key activities - including conducting investigations of potential market
        abuses - did not have measures;
    0   Measures did not always directly address program activities;
        Measures in the Competitive Markets area were generally not objective,
        quantifiable, or oriented towards outcomes or outputs; and,
    0   In some cases, management could not demonstrate that it had actually achieved
        reported results.

The performance management system did not reach its full potential because the
Commission had not promulgated necessary internal operating guidance, nor did it have
in place a coordinated process to facilitate the development of performance measures and
targets. In addition, a process to document and validate reported results had not been



                                @    Printed with soy ink on recycled paper
                                          2


implemented. Without well-developed performance management systems, the tools
needed for day-to-day oversight of programs may be less effective, and the Commission
cannot clearly demonstrate that it is satisfying its critical energy markets mission.

In our judgment, the overall quality of the Commission's Fiscal Year 2003 performance
measures and targets appears to have improved since Fiscal Year 2002. However, we
noted additional opportunities for enhancing the performance management system, and
we have made several recommendations in this regard. As emphasized by the Office of
Management and Budget, well-developed and fknctioning performance management
systems are essential for increasing the efficiency of operations and meeting the
President's Management Agenda initiatives.

MANAGEMENT REACTION

Management concurred with the report's findings and recommendations. Management
indicated that it plans to issue new guidance and adopt procedures to facilitate the
development of performance information and improve program accountability over
results.

Attachment

cc: The Secretary of Energy
    Executive Director, Federal Energy Regulatory Commission
                                                                                                               .-




FEDERAL ENERGY REGULATORY COMMISSION'S
PERFORMANCE MANAGEMENT

TABLE OF
CONTENTS



              Performance Measurement Program

              Details of Finding .......................................................................   1

              Recommendations and Comments ............................................                    4


              Appendices

              1. Objective, Scope, and Methodology .....................................                   5

              2. Prior Reports.........................................................................    7

              3. Management Comments .......................................................               8
PERFORMANCE MEASUREMENT PROGRAM

Performance Measurement   Our review of the Commission's performance measurement and
and Reporting             reporting systems disclosed opportunities for enhancement.
                          Specifically, measures did not cover all key areas and, in some cases,
                          could be better focused. In addition, certain measures could be more
                          usefkl and reported results better supported.

                                                    Coverage
                                                          -  and Focus

                          The Commission had not developed performance measures and targets
                          for all of its core activities within each of its goals. For example,
                          despite being the primary method of protecting market participants,
                          measures or targets had not been established for conducting
                          investigations of potential market abuses for Fiscal Years (FY) 2002
                          through 2004. While we learned that about 60 investigations had been
                          performed during FY 2002, their quality and timeliness cannot be
                          determined without established performance measures and targets.
                          Officials indicated that they have now begun to take a harder look at
                          this area and hope to agree on a method of measuring performance.

                          The Commission had also not established a performance measure and
                          target to guide the audit resolution process. Officials told us that while
                          they coordinate certain issues through the Federal Managers' Financial
                          Integrity Act process, the Commission had not established an audit
                          resolution committee. After discussing the issue with officials from
                          the Office of Executive Director, they indicated that they recognized the
                          value of a measure in this area and planned to include one in future
                          performance plans.

                          We also noted that two performance measures for the Office of Market
                          Oversight and Investigation did not directly address that office's
                          program activities. Instead, the measures were based on expected
                          outcomes associated with the anticipated approval of one Regional
                          Transmission Organization (RTO). For example, measures and targets
                          were established to increase the number of market monitoring
                          institutions and systems, and the amount of load covered by RTOs.
                          While these are desirable outcomes of formulating such an
                          organization, they are not activities directly within the Commission's
                          control. One program official told us that the measures were created
                          because the Commission anticipated approval of an RTO and that the
                          measures were not used to manage program activities.




Page 1                                                                          Details of Finding
                                 Usefulness of Measures

         The design and structure of a significant number of the Commission's
         Competitive Markets performance measures could be improved.
         Specifically, 12 of the 15 FY 2002 measures were not, in our judgment,
         objective, quantifiable, and outcome or output-oriented. Further, none
         of the 15 stated the expected level of achievement by the program. For
         example, one measure and target related to investment in generation
         and transmission required that investment be "adequate" to meet market
         needs. Even though this measure relates to an important portion of the
         Commission's mission, the required level of achievement is subjective.
         While we noted certain improvements in the FY 2003 measures for this
         area, three of the seven we reviewed had similar issues. For example,
         we noted that the measure related to the establishment of Regional
         Transmissiodhdependent System Organizations did not define what
         planned actions were to be accomplished and did not provide target
         performance rates.
                                     Reporting Results

         The Commission could not hlly support reported results for certain
         measures in its Resource Management, Competitive Markets, and
         Market Oversight areas. For example, officials were unable to provide
         substantiating information for 4 of 15 annual goals we selected for
         detailed review. In the Resource Management area, for instance, the
         Commission was reporting that it was collecting 98 percent of the
         annual assessments receivable within 45 days of billing based on
         historical trends, rather than on actual data. We were informed near the
         end of our audit, however, that actual collections were made on only
         85 percent of the assessments. Commission officials indicated that they
         did not use available receivable aging schedules to measure
         performance and could not determine whether collections were
         completed within 45 days. Accurate reporting in this area was critical
         because the Commission must recover the full cost of its operations
         from the industries it serves to offset its appropriation.

         Regarding the Competitive Markets goal, the Commission could not
         provide information on a performance measure on the volume of
         financial risk-hedging transactions. Even though program officials
         reported details regarding its FY 2002 accomplishments in this area,
         they could not provide supporting documentation. Additionally,
         officials from the Office of Market Oversight and Investigation could
         not tell us why the related measure was established or how it was used
         to direct and oversee the program.


Page 2                                                       Details of Finding
                            Finally, under the Market Oversight goal, the Commission established a
                            performance measure on customer satisfaction with alternative dispute
                            resolution processes. Specifically, the Offices of Administrative
                            Litigation, Administrative Law Judges, and Dispute Resolution Service
                            reported that customers were satisfied with alternative dispute
                            resolution processes in at least 90 percent of completed cases. These
                            offices, however, did not survey customers and told us that the results
                            were based simply on the number of completed cases or the fact that
                            they did not receive any complaints.


Guidance and                Developing guidance and establishing a coordinated process to
Collaboration               facilitate the development of performance measures and targets could
                            improve the Commission's performance management program. In
                            addition, a process to document and validate reported results could also
                            help officials substantiate reported results. Currently, performance
                            measures, targets, and results are based on data calls from the Office of
                            Executive Director to various program offices. Other than general
                            information supplied in the data call, the Commission provided no
                            specific guidance and did not require adherence to Office of
                            Management and Budget (OMB) Circular A-1 1 requirements for
                            performance management. Absent overall direction or guidance,
                            branch or division managers were free to decide how to develop
                            measures, coordinate performance, validate accomplishments, and
                            report results. Program officials also told us that there were no review
                            processes to facilitate collaboration between the Office of Executive
                            Director and program office directors. Such processes could help to
                            ensure that the measures were aligned with overall goals and that they
                            were useful in measuring day-to-day performance.


Integration of Budget and   A well-developed and functioning performance management system
Performance                 should provide leaders with valuable tools essential for day-to-day
                            oversight of their programs. These measures can also aid the
                            Commission in demonstrating that it is satisfying its critical energy
                            markets mission. The President's Management Agenda requires that
                            scarce resources be allocated only to programs that deliver results and
                            that every program must eventually be judged as either a success or a
                            failure. A refined performance management system therefore becomes
                            critical to the Commission's ability to satisfy its statutory and regulatory
                            responsibilities. Improvements in the development of measures and
                            validation of results are essential for managers and leaders at all levels
                            to ensure that their organizations are adequately addressing all core
                            mission components.

Page 3                                                                             Details of Finding
RECOMMENDATIONS       To improve the quality and usefulness of its performance management
                      system, we recommend that the Executive Director, Federal Energy
                      Regulatory Commission:

                           1. Develop and implement guidance, consistent with
                              Government Performance and Results Act and OMB Circular
                              A- 11, to aid in the development of goals, performance
                              measures, and targets;
                           2. Establish requirements for budgetary staff and program
                              officials to collaborate in the preparation of annual
                              performance measures and targets to ensure that the
                              Commission's core program activities are represented
                              appropriately; and,
                           3. Ensure that reported performance results are documented and
                              that a process is in place to verify and validate results as
                              appropriate.


MANAGEMENT REACTION   The Commission's Executive Director concurred with the report's
                      findings and recommendations. The Commission plans to issue
                      appropriate guidance and meet with program offices to aid in the
                      development of goals, performance measures, and targets. In addition,
                      the Commission agreed that better accountability is needed, and plans
                      to include a performance results review in the FMFIA process to verify
                      and validate performance measures and results.




Page 4                                                 Recommendations and Comments
Appendix 1

OBJECTIVE     The objective of the audit was to determine whether the Federal Energy
              Regulatory Commission had established objective, quantifiable, and
              outcome or output-oriented performance measures for its significant
              programs and whether it had met its annual performance goals.


SCOPE         The audit was performed fiom February through July 2003 at the
              Federal Energy Regulatory Commission in Washington, DC.


METHODOLOGY   To accomplish our objective:

                    0   We reviewed the Government Performance and Results Act,
                        President's Management Agenda, and Office of Management
                        and Budget Circular A- 11.

                        Meetings were held with officials fiom the Executive
                        Director's office responsible for performance data collection
                        and reporting from their divisions and the program offices
                        within the Commission. We also met with the program
                        officials fiom the Offices of Energy Projects; Markets, Tariffs
                        and Rates; Market Oversight and Investigation; Dispute
                        Resolution Service; Administrative Law Judges; and,
                        Administrative Litigation to discuss their core activities and
                        performance measure processes.

                        We analyzed all Commission performance measures and
                        targets for FY 2002 and 2003 for consistency with OMB
                        Circular A- 1 1.

                        We judgmentally selected 15 of 45 perfonnance measures
                        across each of the Commission's four major goals in FY 2002
                        for a more detailed review.

                        We met with program office divisions responsible for the
                        selected performance measures and targets to collect and
                        analyze documentation to support the reported results and
                        discuss how performance metrics were used to manage the
                        program and how core activities were identified.

              We conducted the audit in accordance with generally accepted
              Government auditing standards for performance audits, and included



Page 5                                         Objective, Scope, and Methodology
    Appendix 1 (continued)

                         tests of internal controls and compliance with laws and regulations to
                         the extent necessary to satisfy the audit objective. Because our review
                         was limited, it would not necessarily have disclosed all internal control
                         deficiencies that may have existed at the time of our audit. We did not
                         conduct a reliability assessment of computer-processed data because
                         supporting documentation obtained to verify and validate performance
                         results was traced to its original source.

                         On September 4,2003, we met with the Executive Director, Federal
                         Energy Regulatory Commission, who concurred with the report's
                         findings and recommendations. The Commission elected to waive the
                         exit conference.




~




    Page 6                                                Objective, Scope, and Methodology
Appendix 2
                                       PRIOR AUDIT REPORTS

    Office of Inspector General Reports:

         Special Report: Management Challenges at the Department of Energy (December 2002,
         DOE/IG-0580). The President's Management Agenda identified Budget and Performance
         Integration as a government-wide initiative and outlined a plan to provide a results-oriented
         management process for the Federal government. A primary focus of the President's plan is
         that funding allocations are based on the achievement of goals. The Department has been
         criticized for deficiencies that include: performance measures that are not quantifiable,
         performance measures that do not support key goals, and underlying processes that are not
         results oriented.

         Environmental Management Performance Measures (June 2002, DOE/IG-0561). The audit
         disclosed that while the environmental remediation program had cost growth and schedule
         slippages, the Department reported the program as a success in meeting its goals. In
         addition, performance measures did not completely cover environmental cleanup projects.

         Special Report: Performance Measures at the Department of Energy (May 2001, DOE/IG-
         0504). Some performance measures were not output or outcome oriented and did not
         contain tangible, measurable goals stated in objective or quantifiable terms. Critical
         measures relating to some of the Department's major challenge areas were not present.
         Performance results reported for the selected measures were not always accurate and valid.

    U.S. General Accounting Office Reports:

         Energy Markets: Additional Actions Would Help Ensure That FERC's Oversight and
         Enforcement Capability Is Comprehensive and Systematic (August 2003, GAO-03-845).
         FERC has not developed outcome or results-oriented performance measures that express
         what the office will be working to achieve and that can be used to assess it progress in
         carrying out its goals and objectives. FERC stated that developing outcome measures is
         proving to be difficult but believes that it is possible. Although FERC developed new
         performance measures for its market oversight goals and objectives for FY 2003 and 2004,
         the new measures are generally not outcome-oriented.

         Energy Markets: Concerted Actions Needed by FERC to Confront Challenges That Impede
         Effective Oversight (June 2002, GAO-02-656). Although FERC has made improvements to
         its strategic plan in 2000 and 2001, the plan still lacks outcome-oriented goals and
         objectives and important details on how FERC will monitor markets. FERC can address
         this issue by updating its strategic plan to include outcome measures that can be used to
         assess how well FERC is doing in overseeing competitive energy markets. The strategic
         plan should also include specific strategies for achieving the goals and objectives that set
         out explicitly how FERC will work with market participants to provide comprehensive
         oversight of the markets.

Page 7                                                                                       Prior Reports
Appendix 3




         0tltic.r of the
         Executive Director


         Fredrick D. Doggett
         Assistant Inspector General for Audit Services
         Office of Inspector General
         1000 Independence Avenue SW
         Washington, DC 20585-0001

         Subject: Management Comments on the 9/22/03 DOElG
                  Draft Audit Report: "Fcdcral Energy Regulatory
                  C.'ommission's Performance Management"

         Dcar Mr. Doggett:

         Thank you for the opportunity to respond to your draft report titled "Federal Energy
         Regulatory Commission's Performance Management." We have reviewed the report and
         are providing the fbllowing comments. I f you need any further assistance, please contact
         Matthew Sweet at (202) 502-8926.

         1. Develop and implement guidance, consistent with the Government Performance and
         Results Act and OMB Circular A- 1 1 , to aid in the development of goals, performance
         measures, and targets.

         Concur. We plan to establish and implement appropriate guidance, consistent with the
         Government Performance and Results Act and OMB Circular A- 1 I , beginning with the
         FY 2006 Budget Call. In addition to including copies of the most current guidance from
         OM B to program office contacts with the initial budget call documentation, we will meet
         with program office contacts early in the budget cycle to clarify and explairi the guidance
         in an effort to support their development of appropriate goals, performance measures, and
         targets.

         2. Establish rcquiremcnts for budgetary staff and program officials to collaborate in the
         preparation of annual performance measures and targets to ensure that the Commission's
         core program activities are represented appropriately.

         Concur. We recognize the need to havc a better performance management system to
         ensure that the Commission's core program activities are represented appropriately.
         Improvements in some key program arcas havc been made, but we agree that more needs
         to be done. As stated above, we plan to meet early with program office contacts to




Page 8                                                                          Management Comments
Appendix 3 (continued)




         ensure understanding of the most current performance r~~anagement     guidance. We will
         also establish additional nlilestones during the budget cycle to meet and discuss
         performance measurements with program offkes.

         We feel that help from an external performance mcasur-cment consultant would be very
         beneficial to the Commission in developing better perfbrmance measures in each of our
         critical program areas. An initial target for the FY 2006 budget cycle will be to conduct a
         performance management workshop/training session to take place in FY 2004. This
         session will be for budget staff and budget contacts responsible for developing and/or
         coordinating performance measures and results in their respective offices.

         3. Ensure that reported performance results are documented and that a process is in place
         to verify and validate results as appropriate.

         Concur. Our performance goals, outcomes and measures are updated annually and
         depending on the changes in the energy markets, the measures could change. In the next
         year we will be updating and documenting these changes as part of our budget cycle. It is
         the responsibility of the program offices to track and document their performance results.
         We agree that better accountability on the part of the program offices needs to be
         addressed. Our plan for FY 2004 is to add a performance results review to our FMFIA
         process that will help verify and validate our measures and results.




                                                         Thomas R. Herlihy
                                                         Executive Director

         cc:   John Delaware
               Stack Davis




Page 9                                                                        Management Comments
                                                                             IG Report No.: DOE/IG-0627

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helphl to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name                                          Date

Telephone                                      Organization

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer fhendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
